IN THE SUPREME COURT OF THE UNITED STATES
ULISIS ALVARADO,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.

)
)
) No. ____________
)
)
) MOTION FOR LEAVE TO
) PROCEED IN FORMA PAUPERIS
)
)

Comes now the Petitioner, Ulisis Alvarado, and in support of this Motion
for Leave to Proceed In Forma Pauperis, states to the Court as follows:
1. The Petitioner was incarcerated as a result of the sentence he
received in this case. He does not have any assets at this time.
2. The undersigned attorney, Wallace L. Taylor, was appointed to
represent the Petitioner in his appeal to the Eighth Circuit Court of Appeals
under the Criminal Justice Act, 18 U.S.C. ยง 3006A(d)(6).
3. The Petitioner has not sought leave to proceed in forma pauperis in
any other court.
WHEREFORE, the Petitioner, Ulises Alvarado, requests leave to file the
attached Petition for Writ of Certiorari without prepayment of costs and to
proceed in forma pauperis.

/s/ Wallace L. Taylor
WALLACE L. TAYLOR
Attorney at Law
4403 First Ave S.E., Suite 402
Cedar Rapids, Iowa 52402
319-366-2428;(Fax)319-366-3886
ATTORNEY FOR PETITIONER

